O“5408

ORIGINAL
FI LED
AUG 13 2020

IN THE
SUPREME COURT OF THE UNITED STATES

forsv T,

— PETITIONER

Manninn

(Your Name)
vs.
State of Michigan.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

3rd Judicial Circuit Court (Wayne County)

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Crn-iay T

Mantling

(Your Name)
Muskeaort Corr. Fac.. 2400 S. Sheridan Dr.

(Address)
Muslceaon. Michigan 49442

(City, State, Zip Code)
N/A

(Phone Number)

I

QUESTION(S) PRESENTED

1 •)

WHETHER DEFENDANT-APPELLANT WAS DENIED HIS CONSTITUTIONAL RIGHT TO BE PRESENT AT
ALL CRITICAL STAGES OF TRIAL WHERE HE WAS INTENTIONALLY NOT SUMMONED BY THE TRIAL
JUDGE TO APPEAR IN COURT IN PERSON?

2.)

WHETHER THE STATE COURT ERRED IN CONCLUDING THAT DEFENDANT-APPELLANT WAS COMPETENT
TO STAND TRIAL WHERE THE DOCTOR CONDUCTING THE TESTING ADMITTEDLY FAILED TO CONDUCT
COMPLETE TESTING OF DEFENDANT-APPELLANT?

3.)

WHETHER THE STATE COURT'S ADJUDICATION OF DEFENDANT-APPELLANT'S CLAIMS VIOLATED
PRECEDENCE SET BY THE UNITED STATES SUPREME COURT WHERE a) AN ACCUSED HAS THE RIGHT
TO BE PRESENT AT ALL CRITICAL STAGES OF THE TRIAL WHERE HIS ABSENCE MIGHT FRUSTRATE
THE

FAIRNESS

OF

THE

PROCEEDINGS,

b)

WHERE

THE

TRIAL

STATED

THAT

TESTING WAS

NECESSARY UPON THE SHOWING IN THIS CASE THAT DEFENDANT MAY BE INCOMPETENT,
ESTABLISHING

THAT

THE

COMPETENCY

TO

STAND

PROCEDURES

ADEQUATE

THUS

COURT HAD A BONA FIDE DOUBT AS TO DEFENDANT-APPELLANT'S
TRIAL,

TO

AND

PROTECT

c)

WHERE

THE

STATE

COURT

FAILED

DEFENDANT-APPELLANT'S RIGHT NOT

CONVICTED WHILE INCOMPETENT TO STAND TRIAL?

’v

TO

TO
BE

OBSERVE
TRIED OR

LIST OF PARTIES

04 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

Z.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

;

CONCLUSION

1
INDEX TO APPENDICES

APPENDIX A 4- A | ± AZ1
APPENDIX B 4APPENDIX C ;

TAaL

Cwr

i/\i loiO

& /1 rvt TcUiyvJ £***-/ a*) *fpi4L5
MiCkiyJ

C«*rr o4<kt-

GryfUurVet)
APPENDIX D;

O

AVtcivJ^^

APPENDIX E

4./fa&L-

Catur

£YAr*\ fJtrtioii

APPENDIX p ; AR.a.Ai£fJwvtfV< p/J "TkS

er^&c

-ffeW5 Cfi-lp'f

"XAJ(k>h/**rt7p<J

tap£t>Mv- G ;
ir*
± U l i -TtiitL town's o<Lfc«syo
C&riitJfi, ^ ^>fe>tJ5 TbiCi'-ry
U-uv*u,j^ -r^asc*;^

frpp-e+jJi Y

J i

sjMihit /hu^

bppt+tj) y

^5 ;

erstKy

A ppl^ b IX

l< ;

C#*%pt-re*jey

4r
C^^ACiry
/

'TtL^^c^lp'f
6tyW7 r-fCrTtt, (jih>b<S)JbUAt^

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

(a /vi/Mou*./

QA^urra
MsbifiJA

CfiL;%ui'<A
daC'JoM/’n
J

*

VZO

j

"■

%

J V7X uy %o(rj 95 S.c-t. z,szs
SoS AS. *j7;//z
J.&7X

17. fodbwSoJj 383 v.S. Z-7SJ $q, 5.c-t 830
P UjlruJ u. SfJLhJ
V7<
*St‘S a.5- tWjfoY 3.CT r?3

AtJ

f

a.S. fbl- iS

€
$
%

ToM%t 3 31 ^-3d. y*, C**k£*.ioo}J
%

STATUTES AND RULES
fA C L

ISO- ti

y*vCU

7 5°' no A'C

y^c L

750. Z27

ifA CL

-7 5* • S/(/

OTHER

4
H

v
v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ *| For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_h__ to the petition and is
A reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xx] is unpublished.
The opinion orthe Michigan Court of Appeals
appears at Appendix_1___to the petition and is
[x ] reported at

court
5760

Pannlo \r. Manning, 201Q Micrh . Ann. T.PXTS q7fiflC]

[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
App. denied 3/27/20
The date on which the highest state court decided my case wasrecon denied 7/28/20
A copy of that decision appears at Appendix C.
lx ] A timely petition for rehearing was thereafter denied on the following date:
7/28/20
, and a copy of the order denying rehearing
appears at Appendix 1>
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves application of the 14th Amendment to the United States Constitution.

3

STATEMENT OF THE CASE

Defendant-Appellant, Corey L. Manning, was convicted by a jury of two counts of
first degree murder, MCL 750.316-A, MSA 28.548; assault, with intent to do great bodily
harm less than murder,
750.110A-2,

MSA

28.305;

MCL 750.84,

MSA 28.279;

and felony firearm,

first degree home invasion,

MCL 750.227,

MCL

MSA 28.424 before the

Honorable Wendy M. Baxter in the Recorder's Court for the city of Detroit, now called
the Third Judicial Circuit Court for the county of Wayne. On September 25, 1996 he was
sentenced to two terms of life without the possibility of parole, 6 to 10 years, 10 to
20 years, and a mandatory 2 years, respectively.
The prosecutor' s theory of the case was that on October 11,

1995 Defendant

struck the complainant, Jameaka Davis. She told him that she did not want to see him
anymore, but that Defendant was not going to take "no" for answer. On October 12,
1995, at 4:30am Defendant entered a home on Sheridan street where Davis was staying.
Before he entered the house, he recruited his "crew" to accompany him to the house.
The three men went to the house, forced the door open, and began shooting. During the
.incident, Defendant, was allegedly heard telling the others to shoot everyone in the
house. The only thing that ended the incident was the fact that Defendant ran out of
bullets. The prosecutor further stated that Defendant was the leader and that he
wanted, revenge because Davis wanted to live her life.
During this incident, Yvette Fulton was shot several times and killed. Witness
Edward Burrell was shot in the lower left side of his abdomen.
On November 6, 1995, during one of Defendant's preliminary examination hearings
there was a disruption in the courtroom that led to Defendant being removed from the
courtroom.

Several minutes later there was a disturbance in the cellrblock which

prompted defense counsel to orally motion the court for an evaluation by the clinic.
(Preliminary

Examination

Transcript,

pg.

27)(Appendix E).

The

Magistrate Judge,

Theresa Doss, denied the motion, (pg. 29).

V

I

On December 1 ,

1995, defense counsel made another request to have Defendant

evaluated by the Recorder's Court Clinic.

(Arraignment on the Information Tx., pg.

3)(Appendix F). The trial court granted the motion and issued a written order, (pg.
5).
Defendant was evaluated at the Recorder's Court Clinic by Dr. Sandra K. Paige on
January 25, 1996, and a report was generated on January 31, 1996, in which Dr. Paige
found Defendant competent to stand. No statutorily required hearing was held on the
report and the report was never entered on the record. At a Special Pretrial hearing
held on March 8, 1996, the State's Attorney, Robert Pearl, informed the court that Dr.
Paige no longer worked at the clinic, and "that there have been some difficulties in
bringing her in and so on." Mr. Pearl requested that the court order Defendan t
evaluated by the Center for Forensic Psychiatry (C.F.P.). (Special Pretrial Tx., pg.
10-11)(Appendix G).
On April 18,

1996, trial Judge Wendy M. Baxter issued an order stating that

"Upon the showing in this case that the Defendant may be incompetent to stand trial,
IT IS ORDERED that defendant shall undergo an examination, relating to the issue of
competency to stand trial, by the Center for Forensic Psychiatry." (Evaluation Orders
for

Competency

to

Stand

trial,

Criminal

to

C.F.P.

Responsibility

and

Diminished

Capacity)(Appendices H and H1).
Defendant was

transported

the

in Ypsilanti,

Michigan,

where he

underwent an evaluation by Dr. Stephen A. Norris on May 22, 1996. Defendant was never
returned to the C.F.P. to complete the testing.
On June 7, 1996, Defendant was required to be present at a continuation of an
evidentiary/Walker hearing. (Appendix I).
On June
trial,

19,

competency

1996,
to

Dr. Norris authored several reports; competency to stand

waive

Miranda

rights,

diminished

capacity, ,and

criminal

responsibility. However, Dr. Norris did not submit these reports until July 23, 1996,
well after the statutory time limit of 60 days. It was his professional opinion that
t
i

5

;

Defendant was competent to stand trial, competent to waive his Miranda Rights, not
suffering from diminished capacity, and criminally responsible for his actions. Dr.
Norris came to these conclusions without having completed the requisite testing.
A competency hearing was held on August 2,

1996. Trial judge Wendy M. Baxter

failed to order the Defendant out to be present at the hearing. Trial counsel was
askied by Judge Baxter whether he would waive Defendant!s presence,

to which he

answered in the affirmative. Defense counsel then went on. to waive Defendant's defense
and stated that Defendant no longer wanted to raise the issue of competency. The trial
court then went to find Defendant competent to stand trial.
Defendant's trial began on August 26,

//

*3” ^

1996. At the beginning of the trial,

Michael F. Sapala, who was filling in for Judge Baxter during voire dire, admonished
Defendant that if there were any disruptions from him he would be shackled to a chair.
Defendant was subsequently found guilty. The defense did not offer any defense to the
charges.
At

sentencing,

after being given an opportunity

for allocution,

Defendant

attempted to grab an officer's weapon, hoping to be shot and kiled: "Suicide by Cop".
Defendant is currently serving time on the remaining life sentences, having
completed all other sentences.

i

G

REASONS FOR GRANTING THE PETITION

Defendant was placed on trial while incompetent.

After making the initial

determination that there had been a showing that Defendant may be incompetent to stand
trial, the trial judge accepted the findings of the forensic psychologist, Dr. Norris,
who admittedly did not complete the testing. Additionally, Defendant's right to be
present at ALL critical stages of the trial process was denied when the trial
intentionally failed to have Defendant brought to the courtroom for the competency
hearing.
Defendant tested on May 22, 1996. However, only a portion of the testing was
completed.

Defendant was supposedly scheduled to return to complete the testing.

Defendant had no knowledge of when this testing would be done.
On June 7,
hearing.

1996 Defendant was scheduled to appear in court for an evidentiary

Court record's

Ironically,

show that Defendant was present at court on that day.

this is the same day that Defendant was scheduled to return to the

Forensic Center to complete testing.
According to documents received from the Forensic Center, an anonymous deputy at
the Wayne County Jail informed C.F.P. staff that Defendant had stated that he would
not return to complete the testing. (Addendum to competency Report)(Appendix

. ased

on this information Dr. Norris considered the Defendant to have voluntarily absented
himself and therefore he concluded that based on Defendant's failure to cooperate that
Defendant was competent to stand trial. The error in this approach is that Defendant
was in the custody of the Wayne County Sheriff's Department and had no control over
transportation, nor was he privy to any information with regards to the transportation
of prisoners from one place to another as this would be a breach of security.
Accordingly,
trial,

competency

the findings of the doctor as relating to competency to stand
to

waive

Miranda

rights,

diminished

capacity

a'nd

criminal

responsibility were made prematurely and as a result JDfifendant was placed on trial
i.

7

without a defense and while Incompetent, thus violating his Due Process Rights.
It is well established that the Due Process Clause of the Fourteenth Amendment
prohibits the criminal prosecution of a defendant who is not competent to stand trial.
Medina v. California 5 505 U.S. 437, 438; 112 S.Ct. 2572, citing Drope v. Missouri, 420
U.S. 162; 95 S.Ct. 896; and Pate v. Robinson, 383 U.S. 375; 86 S.Ct. 836. The rule
that a criminal defendant who is incompetent should not be required to stand trial has
deep roots in our common-law heritage.

It is recognized that a defendant has a

constitutional right not to be tried while legally incompetent, and that a state's
failure to observe procedures adequate to protect a defendant's right not to be tried
or convicted while incompetent to stand trial deprives him of his Due Process right.
Medina, supra, at 449.
The right to personal presence at all critical stages of a criminal trial is a
fundamental right of each criminal defendant. Rushen v. Spain, 464 U.S. 114; 104 S.Ct.
453. it is essential to Due Process of Law in a fair adversary process that an accused
have the right (1) to be present at all critical stages of the trial where his absence
might frustrate the fairness of the proceedings. Faretta v. California, 422 U.S. 806;
95 S.Ct. 2525. A competency hearing is unanimously considered a. critical stage. Van v.
Jones, 332 F.3d. 430

438 (6th Cir. 2003). In the present case, the successor trial

judge has already acknowledged that Defendant has a right to be present at the
competency hearing and that he was not.

s

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

(S

25

1

